Legal Printers,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

In re William J. French and Sandra M. French

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Mandamus referenced above contains 7,889 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
.
Notary Public
) State of Maryland
Montgomery County
My corrurnsstai ep. October 12,2022

Sworn and subscribed before me this 1st day of October 2021.

